GR-90-99-006
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
EMERYVILLE POLICE DEPARTMENT
California
GR-90-99-007
 
December 1998
 
* * * * *
EXECUTIVE SUMMARY
	The Office of the Inspector General, Audit Division, has completed an audit of five grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Emeryville Police Department (EPD), California.  The EPD received a grant of $75,000 to hire one sworn officer under the Funding Accelerated for Smaller Towns (FAST), $450,000 to hire six sworn officers under three Universal Hiring Program grants (UHP I, UHP II, and UHP III).  In addition, the EPD received $29,298 to redeploy 1.2 sworn officer full-time equivalents (FTEs) to community policing under the Making Officer Redeployment Effective program (MORE 96).  The purpose of the additional officers under the grant program is to enhance community policing efforts.
	In brief, our audit determined that the EPD violated the following grant conditions:


The EPD did not establish separate cost accounting centers for each of the COPS grants.
The EPD charged the FAST/UHP grants unallowable costs ($33,434) for overtime and holiday pay, counseling services, and excess medicare allowance.  The federal share for the aforementioned unallowable costs is $10,599.
The EPD generally was not in compliance with the grant reporting requirements.  The Department Initial Report understated the number of sworn officers.  The 1997 Officer Progress Report and the Progress Report for the MORE 96 grant were not submitted by the EPD.  In addition, two Financial Status Reports (FSRs) for the MORE 96 grant and one for the FAST/UHP grant were not submitted as required.  Five FSRs were not submitted timely for the FAST/UHP grants; and none of the three FSRs for the MORE 96 grant were submitted timely.

	These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.
#####